                                                                       Office               Hotline

  Office of Inspector General                                          202.692.2900
                                                                       peacecorps.gov/OIG
                                                                       OIG Reports
                                                                                            202.692.2915 800.233.5874
                                                                                            Online Contact Form
                                                                                            OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          March 28, 2013

Subject:       Final Report on the Review of the Peace Corps’ Management of Grants for
               Volunteer Projects (IG-13-04-A)

Transmitted for your information is our final report on the Review of the Peace Corps’
Management of Grants for Volunteer Projects.

Management concurred with all 15 recommendations. We closed three recommendations:
numbers 1, 6, and 9 based on a review of corrective actions and supporting documentation. The
remaining recommendations will stay open pending confirmation from the chief compliance
officer that the documentation identified in management’s response has been received. In its
response, management described actions it is taking or intends to take to address the issues that
prompted each of our recommendations. We wish to note that in closing recommendations, we
are not certifying that the agency has taken these actions or that we have reviewed their effect.
Certifying compliance and verifying effectiveness are management’s responsibilities.

Our comments, which are in the report as Appendix E, address these matters. Please respond
with documentation to close the remaining open recommendation within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Audit Bradley Grubb at 202.692.2914.
Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Carlos Torres, Acting Associate Director, Global Operations
        Corey Griffin, Associate Director for Strategic Partnerships, Office of Strategic
               Partnerships
        Joseph Hepp, Chief Financial Officer
        Dorine Andrews, Chief Information Officer
        Lisa Bilder, Chief Acquisition Officer
        Charles Kemp, Deputy Chief Financial Officer
Jennifer Chavez Rubio, Director, Office of Gifts and Grants Management
Nicole Mlade, Director of Intergovernmental Affairs & Global Partnerships
Kathy Rulon, Senior Advisor to the Chief of Staff
Paul Shea, Director, Global Accounts Payable
Samuel Taylor, Budget Officer, Office of Budget and Analysis
Dick Day, Regional Director, Africa
Helen Lowman, Regional Director, Europe, Mediterranean, and Asia Operations
Jennifer Parrish Taylor, Special Assistant to the Chief Compliance Officer
Small Grants Working Group
             Peace Corps
             Office of Inspector General




                    Volunteer with a resident at an orphanage that
                    was refurnished using a PCPP grant in China




Volunteer works on a bakery project           Volunteers lead an environmental leadership
funded by a VAST grant in Uganda               camp funded by a SPA grant in Costa Rica


                        Final Report:
         Review of the Peace Corps’ Management of
               Grants for Volunteer Projects
                         IG-13-04-A
                                                                        March 2013
                                      EXECUTIVE SUMMARY
The Peace Corps developed internal grant programs to facilitate the development and
implementation of sustainable, capacity-building projects in communities where Volunteers
serve. In recent years grant use by Volunteers and their communities has increased. The internal
grant programs that are overseen by Peace Corps headquarters include: Peace Corps Partnership
Program (PCPP), Small Project Assistance (SPA), Volunteer Activities, Support, and Training
(VAST), and Energy and Climate Partnership of the Americas (ECPA). Funding for these
internal grant programs (hereafter referred to as “grant programs”) originate from various
sources including Volunteer’s friends and family, other government agencies, and outside
organizations. Additionally, there are outside grants that Volunteers and their communities
receive from organizations that are not overseen by Peace Corps, for instance: local charities,
non-governmental organizations, government programs, individuals, and corporations.

Our review focused on Peace Corps’ management of external funds and grants for Peace Corps
Volunteer projects, including: PCPP, SPA, and VAST. Our overall objective was to determine
whether these funds were properly managed and to identify ways to strengthen their
management. We also conducted a limited review of the Volunteers’ involvement with outside
grants and ECPA.

The review found that since grant programs were developed independently, headquarters did not
communicate a clear strategy on how to use the grant programs to accomplish the Peace Corps’
goals. Guidance or standards on how to incorporate grants into their post-specific strategic plans
were also not provided. As a result, staff and Volunteers were not always clear on the
appropriateness of grant projects or the impact of grant programs on the post operations.

Additionally, the fieldwork found that while Volunteers were using outside grants, they were
avoiding the internal grant programs because they were burdensome and time-consuming. The
Peace Corps’ policy is that Volunteers are not allowed to solicit or accept outside funds however,
Volunteers can assume a supporting role to assist their communities in receiving outside funds.
In some cases Volunteers and staff assumed inappropriate roles with outside grants. The Peace
Corps did not have a reliable means for assessing the prevalence and appropriateness of outside
grants and did not monitor or control their use.

Headquarters did not have consistent processes for internal grant programs and had not
developed adequate methods to monitor posts’ use of grant programs. Internal grant programs
were managed by different offices and there was ad hoc communication and coordination
between them. Furthermore, we identified that headquarters provided limited guidance to posts
on vetting grant fund recipients and reporting lost or stolen grant funds.

Posts varied greatly in their implementation of grant programs because some guidelines provided
by headquarters were not mandatory and there were differences between the programs. As a
result, there were inconsistencies in how posts divided grant management responsibilities among
staff, determined the recipient of grant project funds, and retained grant project documents.




Final Report: Peace Corps’ Management of External Funds for Volunteer Projects                       i
Additionally, posts did not have a consistent way to track individual grant projects throughout
their lifecycle, which also limited headquarters’ ability to provide oversight.

The agency was in the process of improving grants management through realigning offices and
staff, updating policies and procedures, and using the small grants working group (SGWG) to
streamline the distinct internal grant programs under a unified platform. The SGWG was
working on various initiatives for all internal grant programs. During the review, the SGWG
issued a combined application, staff and Volunteer small grants handbooks, and additional
guidance for overseas posts. The SGWG was also working with the Office of the Chief
Information Officer on a grants management system. The SGWG was proactive and solicited
feedback from the Office of Inspector General (OIG) throughout the review. As a result, SGWG
was able to take corrective actions on many of the weaknesses identified during our review.

Management concurred with all 15 recommendations. We closed 3 recommendations based on
management’s actions. The remaining 12 recommendations will stay open pending copies of
documents described in Appendixes D and E.




Final Report: Peace Corps’ Management of External Funds for Volunteer Projects                    ii
                                                     TABLE OF CONTENTS

E XECUTIVE SUMMARY .................................................................................................................... I

BACKGROUND ..................................................................................................................................1

R ESULTS OF R EVIEW .......................................................................................................................4
            P EACE C ORPS’ G RANTS STRATEGY ............................................................................................................. 4

            O UTSIDE G RANTS ......................................................................................................................................... 6

            H EADQUARTERS’ M ANAGEMENT AND O VERSIGHT OF G RANT P ROGRAMS .............................................. 9

            P OSTS’ M ANAGEMENT OF G RANT P ROGRAMS.......................................................................................... 16


Q UESTIONED C OSTS AND F UNDS TO BE P UT TO BETTER USE .....................................................22

L IST OF R ECOMMENDATIONS .......................................................................................................23

APPENDIX A: O BJ ECTIVE , SCOPE , AND M ETHODOLOGY.............................................................25

APPENDIX B: G RANT P ROGRAM G UIDING DOCUMENTS .............................................................27

APPENDIX C: L IST OF ACRONYMS ................................................................................................28

APPENDIX D: M ANAGEMENT ’S R ESPONSE TO THE P RELIMINARY R EPORT ...............................29

APPENDIX E: OIG C OMMENTS .....................................................................................................38

APPENDIX F: AUDIT C OMPLETION AND OIG C ONTACT ..............................................................39
                                              BACKGROUND
OIG conducted a review of the Peace Corps’ management of external funds and grants for Peace
Corps Volunteer projects, including: PCPP, SPA, and VAST. Our overall objective was to
determine whether these funds were properly managed and to identify ways to strengthen their
management. We reviewed grant sources, policies and procedures and related internal controls at
headquarters, and tested posts’ implementation of procedures to ensure that funds were used to
effectively and efficiently support the work of Volunteers. Appendix A provides a full
description of our audit objective, scope, and methodology.

Grant Programs
Volunteers use small grant programs to accomplish projects with their host communities that
have a positive and sustainable impact. Typical small grants projects include trainings,
educational seminars, workshops, community awareness events, and modest construction
projects such as designing and planting gardens, building classroom additions, or building
latrines.

The Peace Corps has developed internal grant programs, which allow Volunteers to request
funds from donors, such as friends and family, or other government programs and work with
their communities to complete projects with the funds received. Peace Corps headquarters staff
members support internal grant programs by coordinating funding with stakeholders and donors
and assisting posts and Volunteers during the approval, implementation, and completion phases
of the grant process.

Peace Corps Internal Grant Programs
Over the years the types of grants that Volunteers could obtain through the Peace Corps has
grown from a single internal grants program in the 1960s to four grant programs today, which
are described below.

PCPP. In 1964, the Peace Corps established the School to School program which later became
PCPP to serve as a link to groups, foundations, service organizations, and individuals wanting to
contribute to the work Volunteers do with their host communities. PCPP does not fund projects
but instead enables Volunteers to receive funds through online, phone, and mail donations for
their community projects. PCPP is managed at headquarters by the Office of Gifts and Grants
Management (GGM)1, which has the authority to solicit and accept funds.

SPA. Established in 1983 through an agreement between the U.S. Agency for International
Development (USAID) and the Peace Corps, SPA provides support for small-scale community
grants, and for building the capacity of men, women, boys and girls in assisting grassroots
organizations and communities around the world. The SPA program strives to accomplish its
objectives through grants and field assistance. While the posts work directly with USAID to
develop in-country implementation plans, the Peace Corps’ Office of Intergovernmental Affairs



1
    The office name changed on February 13, 2012 and was formerly the Office of Private Sector Initiatives (OPSI).


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                             1
and Global Partnerships (IGAP) provide agency-wide oversight and administration of the SPA
program.

VAST. VAST is funded by the President’s Emergency Plan for AIDS Relief (PEPFAR)
established in 2004. VAST is a primary resource for small-scale HIV/AIDS projects initiated by
communities and organizations partnered with Volunteers. Volunteers are able to receive VAST
grants to fund projects that address the global HIV and AIDS pandemic. The VAST program is
included in post’s HIV/AIDS implementation plan, which is approved by the Office of Global
Health and HIV (OGH/H). 2

ECPA. In 2010, the Peace Corps signed an interagency acquisition agreement with the
Department of State to join the government’s regional partnership to address energy and climate
issues. Under this agreement, Volunteers can access grants that facilitate the training of host
country nationals on rural energy practices and technology installation, operations and
maintenance; build social support for the technology’s use and cost; and assist in training
methodologies in selected Western Hemisphere countries. A specialist in the Overseas
Programming and Training Support office works with staff in the Inter-America and Pacific
region and other headquarters offices to assist posts with the grant program.

Trend in Use of Grants
The Peace Corps recognizes that grant programs can enhance program delivery and potentially
have a positive impact in the countries where Volunteers serve. Grants are one way to further the
work of Volunteers and their communities. Information collected by the Peace Corps
headquarters offices managing grant programs shows a growing trend in Volunteers using grants
programs.

                  Figure 1. Amount of Funds for Small Grants by Funding Source




               Source: Small Grants Working Group presentation to Global Operations, December 2011



2
    The office name changed on September 23, 2011 and was formerly the Office of AIDS Relief (OAR).


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects              2
                            Figure 2. Number of Grants by Funding Source




              Source: Small Grants Working Group presentation to Global Operations, December 2011

Agency Initiatives
On February 13, 2012, the Peace Corps established the Office of Strategic Partnerships (OSP) to
coordinate the development and implementation of partnerships and donor engagement to
enhance programs through every stage of the Volunteer lifecycle. OSP’s central role was to lead
the agency’s partnership and donor engagement activities with U.S. government agencies, non-
governmental organizations, the private sector, and universities by coordinating the activities of
three sub-offices: IGAP, GGM, and the Office of University and Domestic Partnerships.

            Figure 3. The Office of Strategic Partnership New Organizational Chart

                                                    Office of Strategic
                                                       Partnership



                                                         Office of
                                                                             Office of University
                         Office of Gifts and       Intergovernmental
                                                                               and Domestic
                        Grants Management           Affairs and Global
                                                                                Partnerships
                                                       Partnerships


This organizational change effectively brought two of the grant programs under OSP: SPA
(managed by IGAP) and PCPP (managed by GGM). VAST continues to be managed by OGH/H,
which is under the Office of Global Operations.

In addition, GGM, IGAP and OGH/H formed the SGWG to ensure effective and strategic use of
small grant funding. SGWG focused on establishing standard tools and requirements across grant
programs, providing recommendations to streamline management of small grant programs at
post, conducting training, and reviewing resources that support posts. During our review the
SGWG was in the process of integrating the grants programs, streamlining policies and
procedures, and providing tools to posts for tracking grant projects.


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects            3
                                       RESULTS OF REVIEW
PEACE CORPS’ GRANTS STRATEGY

Headquarters had not communicated a clear overarching strategy on the use of grant
programs to accomplish the Peace Corps’ goals and had not provided adequate guidance on
how to incorporate the use of grants into their post-specific strategic plans.

Until the forming of the SGWG, grant programs were managed by different offices with ad hoc
communication among the programs. As a result,

         staff and Volunteers were not always clear on the appropriateness of grant projects;
         posts were left to decide whether or not to use specific grants programs and to what
         extent to use them; and
         use of grants at posts varied widely, lacking sufficient standardization, and could change
         abruptly with staff turnover.

Peace Corps’ Strategy on Grants
During our review we found that some headquarters offices and posts did not have a clear and
consistent understanding of the agency’s overall strategy on the use of grant programs. When
clearly defined and communicated by senior management an overarching strategy can help guide
staff and Volunteers in their decisions on using and managing their grant programs.

The agency’s Programming and Training Guidance released in October 2011 explains the Peace
Corps’ first goal as “supporting work led by host country leaders to meet the needs of low income
communities with trained Volunteers, not financial support.” If used effectively grants could further
support the agency in achieving this goal. However, grants could also become a threat to achieving
this goal as the guidance also distinguishes the Peace Corps as a capacity-building organization at
the grassroots level focused “on the development of the capacity of people, not things.” The
guidance further explains that the Peace Corps’ philosophy is that every effort should be made:

         To seek local level funding first so that Volunteer/partner activities are built on resources available to
         community members, to minimize the need for additional funds, and to maximize the sustainability and
         replicability of Volunteer efforts.
         To engage host country regional and national partners through in-kind support where possible.
         To draw upon international funds only as necessary and consistent with the Peace Corps approach to
         development. …These could be Peace Corps-managed funds, such as SPA or Partnership, or other
         international funds.

A presentation to the Office of Global Operations by the SGWG in January 2012 reported a
continuous increase in the number of Volunteer grant projects and estimated this trend will
continue. The Peace Corps also introduced additional grant funds through ECPA at 11 posts. The
Comprehensive Agency Assessment reported “the Director has stated that through strategic
partnerships, the Peace Corps intends to add levels of technical and financial resources to enhance
community projects in the field.”



Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                              4
With the increase in grant opportunities, posts and Volunteers have expressed the need to clarify the
appropriateness of grant projects and when to promote or discourage grant activities. Further, during
interviews staff and Volunteers raised concerns that grant projects can potentially distract the
agency from its core goals and development philosophy. The Office of Innovations’ fiscal year
2011 assessment of small grants raised similar issues regarding the inherent contradiction in the
Peace Corps’ grants program.

Post Grants Strategic Planning
Without clear direction and guidance from headquarters on the appropriate use of internal and
outside grant programs, posts are frequently left to decide whether to engage in grant activities. This
important decision is often solely at the country director’s (CD) discretion rather than clearly
connecting to the post’s strategic plan or agency guidance. As a result, a post’s stance on the use of
grants can change frequently as it experiences turnover in key management positions. Additionally,
staff reported that some posts have unspent grant funds partially because funds were requested by a
former CD who promoted Volunteers conducting grant projects, while a successor CD was not
proactively encouraging grants participation.

Our review also identified that some posts are engaging in grant activities without fully
understanding the programmatic and resource implications for their staff and Volunteers in relation
to their post’s strategic plans. Post staff expressed concerns of having committed to using grant
funds in certain project areas like the HIV/AIDS and environment sectors, even though they did not
have Volunteers or staff with the necessary technical expertise to support developing and
implementing a related grants project. Under an austere budget environment posts are more likely to
accept new funding sources without fully assessing the impact they will have on its operations to
absorb and effectively manage these additional funds.

The amount of time required by post staff to support grant programs can be a significant burden on
staff resourcing. To enable posts to efficiently manage this additional workload they must
sufficiently integrate their grant program resource needs into the post’s strategic plan. Posts need to
develop an effective post-specific grants strategy to support their programmatic goals and should
adhere to the strategy and not deviate merely because of management turnover, pressure from
outside organizations, or to merely acquire new funding sources as opportunities arise.
Development of a long-term post grants strategy is dependent on integrating their grants planning
within the post’s overall strategic planning process.

Once a year posts complete the Integrated Planning and Budget System (IPBS) to update their
strategic plan and budget for the next three years. The IPBS is Peace Corps’ primary program and
resource management planning mechanism. The process initiates with headquarters providing
guidance to posts for preparing their IPBS. Posts use this guidance as a framework to prepare their
IPBS submission which outlines their strategic priorities for the next three years. The IPBS
guidance provided to posts for FYs 2013-2015 did not include a requirement for posts to outline
their post-specific grants strategy and how they are planning to manage their grant programs.
However, components of the SPA and VAST grant programs are already partially integrated into
the post’s IPBS process. Rather than assessing all grants programs comprehensively and using them
to further a post’s strategic plan, integration of SPA and VAST has taken place at the operational
level. Although headquarters has provided posts with resources to support the management of


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                  5
individual grant programs they have not adequately prepared posts to make the larger strategic
decisions on using grants to further the Peace Corps stated goals.

The IPBS process provides an opportunity for headquarters to further support posts in developing
their post-specific grants strategy and management plan. The country analysis section of the IPBS
should require posts to address if grants are appropriate for the country’s current level of
development. Through the program analysis posts should explain their strategy for how grants
support Volunteers in meeting their programmatic goals and objectives. If the aforementioned
information were to be included in the IPBS response, headquarters would have an opportunity to
review how posts are managing their entire grants program and how they could be strengthened.
Further, integrating grants into the IPBS process would provide greater consistency and help ensure
that grants are a priority.

    We recommend

    1. That the Office of the Director clearly define and communicate Peace Corps’ overarching
       strategy on the use of grants and that posts use this information as guidance to develop
       their post grants strategy.

    2. That the Office of Global Operations, in coordination with the Office of Strategic
       Partnerships and the Office of Global Health and HIV require that posts incorporate into
       their strategic plan the post’s grants strategy and management plan, including resources
       that may be needed.


OUTSIDE GRANTS

The agency lacked a reliable means for assessing the prevalence and appropriateness of
outside grants and had not provided sufficient guidance to ensure that Volunteers and staff
understood their appropriate roles.

Volunteers and their communities receive outside grants that are not overseen by Peace Corps
staff from organizations such as local charities, non-governmental organizations, and
corporations. Without adequate oversight, Volunteers may become personally liable for outside
funds and may form inappropriate associations that the agency would not approve.

Volunteer Roles and Responsibilities
The Peace Corps Volunteer Handbook discusses the role and responsibility of Volunteers:

         Volunteers also help their communities network with other regional, national, and international
         organizations to identify support for local priorities. This facilitating role can link host country partners to
         organizations that provide external advice, technical assistance, and even financial resources to help meet
         community goals.

In our review we found that Volunteers sometimes exceeded their facilitating role and assumed
important responsibilities with the solicitation of outside grants and the implementation of grant
projects. Post staff and Volunteers reported that Volunteers are applying for outside grants,


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                                    6
signing responsibility to implement grant projects with outside organizations, or directly
receiving and managing cash and in-kind outside contributions to implement projects.

The Peace Corps’ policy prohibits Volunteers from soliciting and accepting funds. The Peace
Corps Manual section (MS) 720 specifies that only GGM and CDs may accept funds on behalf
of Peace Corps and that, “PCVs are not authorized to accept donations on behalf of the Peace
Corps.” However, the various circumstances involved with working in a developing country
present challenges to Volunteers in determining whether the assistance they are providing would
be considered soliciting or accepting funds. For example, a community partner may not have
access to a bank and the Volunteer may need to receive the funding from the outside source to
give to the partner. Another common example is when Volunteers write grant proposals because
the community partner is not familiar with the language or writing requirements of the grant.

By soliciting, accepting, or managing funds the Volunteer may be liable for the funds. These
outside funds are usually managed outside the Peace Corps financial systems. In addition,
Volunteers may inappropriately associate Peace Corps with projects or funders that the agency
would not approve. To help avoid these risks, the Peace Corps should provide Volunteers and
staff with more explicit examples of appropriate and inappropriate roles in the agency’s
guidance.

Peace Corps Policy
As established in MS 720 and 721 GGM is the only office delegated authority to accept
monetary donations to support Volunteer community projects through PCPP. Volunteers are not
authorized to accept donations on behalf of the Peace Corps outside of this process. GGM serves
as a link to groups, foundations, service organizations, and individuals wanting to contribute to
the valuable work Volunteers do with their host communities. GGM has established systems
where individuals and organizations can securely make tax-deductible donations. Additionally,
GGM’s financial tracking system gives assurance to donors that a 100 percent of their donations
will support Volunteer PCPP projects. GGM also manages donor relationships by answering
questions throughout the process, sharing project information with donors, and providing final
project reports. GGM conducts some vetting of organizations and individuals who want to
partner with the Peace Corps to ensure they are viable and aligned with the Peace Corps’ goals.

Prevalence of Outside Grants
Interviews with staff and Volunteers identified a number of outside grant sources other than
PCPP, SPA, VAST, and ECPA that Volunteers and their communities engage in. OIG requested
Volunteer Reporting Form/Tool (VRF/T) reports for the seven posts included in our fieldwork
and analyzed their outside funding information. The VRF/T gathers information self-reported by
Volunteers three or four times a year on a variety of project activities including internal or
outside grant projects. Based on our review we determined that Volunteers at all seven posts
worked with outside grants from a wide variety of funding sources.

The Peace Corps lacks an effective means for gathering and analyzing data on outside grants and
cannot accurately assess the prevalence and appropriateness of Volunteer projects done with
outside grants. VRF/T data contained inconsistencies in Volunteer reporting; for example, some
Volunteers reported the same project multiple times, others reported a project once but at


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects        7
different times in its lifecycle; and Volunteers sometimes reported currency amounts in U.S.
dollar and other times in local currency. There seems to be insufficient guidance about what
information to report for grant projects based on the varied responses. In our analysis we
attempted to improve the reliability of the data by removing inconsistencies and repetitive
entries.

In the absence of comprehensive data we used the VRF/T and Volunteer interviews to gain an
understanding of the prevalence of outside grant sources. However, we cannot quantify with
certainty the amount of outside grants used by Volunteers and their communities, because of data
validity and reliability issues.

Reasons for Using Outside Grants
During our interviews Volunteers and staff reported that one of the primary reasons that
Volunteers seek outside grants is to avoid the complexity and requirements of Peace Corps’
internal grant programs. Given the small size of grants, Volunteers reported that the Peace Corps
grant application procedures were burdensome.

Additionally, during the course of this review we learned of Volunteers associated with
questionable or inappropriate grant programs specifically designed to expedite the receipt of
funds by circumventing the Peace Corps’ controls.

    •    The nonprofit Water Charities has an initiative titled Appropriate Projects that provides
         grants to Volunteers. The website displays the Peace Corps logo and contains an online
         application for Volunteers to complete. They strive to “slash through the red tape and get
         projects done immediately.” They claim to not wait to receive donations and pre-fund
         projects immediately. Furthermore, their website states “we do not deal with studies,
         reports, evaluations, nitpicking, reviews, administration, overhead, talk, delays,
         processes, procedures, format, overseeing, micro-directing, or excuses.”

    •    A Volunteer created a website to portray a fake organization titled the HumanFund so the
         host country community could apply for a grant and the Volunteer could later self-fund
         the project without the community knowing. We informed the post’s CD and the website
         was later taken down.

Volunteers are seeking simpler grant programs and turning to methods and organizations that
potentially contradict the Peace Corps’ policies, procedures and philosophy on outside grants.
During our review the SGWG was in the process of designing a simplified grant application and
streamlined process to facilitate the ease of use.

         We recommend:

         3. That the Office of Strategic Partnerships conduct an assessment to understand the
            prevalence of outside grants, identify funding sources that should be discontinued,
            and to gain more clarity on why Volunteers pursue outside grants.




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects          8
         4. That the Office of Strategic Partnerships based on the assessment of outside grants, in
            coordination with the Office of Global Operations, define and communicate the Peace
            Corps’ policy on outside grants, to include appropriate Volunteer and staff roles, and
            develop administrative procedures to ensure compliance with the policy.

         5. That the Office of Strategic Partnerships and the Office of Global Health and HIV
            establish a routine process to gather more valid and reliable data on outside grants
            from posts and Volunteers.

         6. That the Office of Strategic Partnerships and the Office of Global Health and HIV
            continue to pursue a simplified grant project application and approval process for all
            internal grant programs.


H EADQUARTERS’ M ANAGEMENT AND O VERSIGHT OF G RANT P ROGRAMS

Headquarters did not have consistent processes for the various grant programs and had not
developed adequate methods for monitoring the post’s use of grant programs.

The grant programs developed independently, were managed by different offices, and had ad hoc
communication and coordination between grant programs. Furthermore, we identified that
limited guidance was provided to posts on vetting grant recipients and reporting of lost or stolen
grant funds. The lack of consistency and streamlined processes created a number of challenges
for posts and Volunteers attempting to understand and comply with the different requirements.

Consistent Processes
Process flowcharts were developed for the three grant programs 3 in coordination with the
agency. Although the grant programs may differ in their relationship with an outside stakeholder,
such as donor and other government agencies, the process for grant projects should be
standardized to promote efficiency and minimize confusion.




3
  Although the agency had additional grant programs, such as ECPA, this comparison focused on the most
significant grant programs. In addition, ECPA generally incorporated procedures from SPA.


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                 9
Table 1. Comparison of Processes across Internal Peace Corps Grant Programs
Phase                Process              PCPP                     SPA                      VAST
Proposal             Headquarters         Reviews each             Reviews each             Receives copy of each
Approval             Review               proposal                 proposal’s abstract      proposal
                     Post Review          Post staff               SPA committee and        Post staff and VAST
                                                                   post staff               committee
                     Consent and          Signed by Volunteer      Signed by PCV,           Signed by PCV,
                     Liability Form       (PCV) and                community partner,       community partner,
                                          community partner        and the Director of      and the DMO
                                                                   Management and
                                                                   Operations (DMO)
                     Headquarters         Tracked in Odyssey-      Tracked in Access        Not previously tracked
                     Project Record       Financial system         database                 at project level
Funding              Funds Sent to        Electronic funds         Community to hold        Provides option
                     Recipient            transfer to PCV          funds, but PCVs can      between PCVs,
                                                                   also receive the funds   community or payment
                                                                                            to vendors
Implementation       PCV and              Additional support       Additional support       Additional support
                     Community            provided by staff if     provided by staff if     provided by staff if
                     Implement            needed                   needed                   needed
                     Project
Close Out            Post Review of       Coordinator reviews,     Coordinator and          Coordinator and DMO
                     Project              CD and DMO sign          DMO review               review
                     Completion           report
                     Reports
                     Headquarters         GGM reviews the          IGAP reviews the         OGH/H receives copy
                     Review of            report and support for   report and support for   of the report
                     Project              accuracy and closes      accuracy and closes
                     Completion           Project in Odyssey       Project in the Access
                     Reports                                       database

There are some variances in the processes for each grant program yet they all aim to achieve the
same objective of providing funding for a community project. All internal Peace Corps
procedures at posts should be consistent if there are no other mitigating circumstances or
requirements that require deviations. The SGWG aims to align all grant programs under a single
set of guidance and requirements. During our review, the group developed a combined grants
application and was working to standardize post staff responsibilities and grants procedures. The
aim of this initiative is to ensure that the only differences across grants programs are those
mandated in agreements the agency already established with organizations like USAID and the
Office of the Global Aids Coordinator. During our review, the SGWG made progress
standardizing the processes and providing guidance to overseas posts. In October, 2012, agency
issued the Peace Corps Small Grants Program Staff Handbook and Peace Corps Small Grants
Program Volunteer Handbook with the purpose of providing “information on the basic rules and
requirements that are applicable for all small grants.” Therefore, we are not making a
recommendation.

Monitoring
Headquarter offices provided different levels of oversight for the individual grant projects. Some
programs maintained control over the approval and close-out process, while others relied on the
posts to manage the projects and just report on the totals. For example:


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                             10
    •    GGM had two individuals that received and reviewed all PCPP applications before
         posting to the website for fundraising and verified all close-out reports were completed.

    •    IGAP relied on posts to approve and fund SPA projects, but requested copies of the
         project abstract and the completion report.

    •    OGH/H relied on posts to approve, fund, and monitor VAST projects, but requests copies
         of completion reports at the end of the project.

    •    ECPA grants relied on post staff to approve, fund, and monitor projects. Posts submit a
         quarterly report to headquarters that aggregates their ECPA activities.

Headquarters should implement a risk-based approach to providing oversight on the post’s grants
management. The risk-based approach would utilize thresholds and sampling to review
compliance with agency policies and rely on post staff to provide the more routine monitoring of
grant projects. The post staff has more detailed knowledge of grant projects in the specific
country and can provide the day-to-day management and supervisory review. Headquarters staff
would provide oversight over all posts and could selectively review proposals and close out
reports based on risks such as dollar amount requested, time to complete the project before
Volunteer leaves the post, and more difficult to manage projects such as scholarships and camps.
Similarly, posts could use approval standards for reviewing grant project applications at post that
are consistent with the criteria used by headquarters. The posts we visited had approval processes
for SPA and VAST but the criteria used during the approval process vary widely across posts.
PCPP’s final approval is done at headquarters however, with the agency’s current streamlining of
grant programs the final approval process is likely to be moved overseas.

For headquarters to be able to provide consistent oversight to all posts, the standard criteria that
posts use to approve projects must be clearly defined by headquarters. Posts, as needed, may add
additional requirements to their approval process, but the minimum expectations need to be
established by headquarters so they are consistent at all posts. With consistent approval
procedures at posts, headquarters will be better able to conduct oversight to identify issues at
posts and provide them with additional support.

Administrative Management Control Survey
The Administrative Management Control Survey (AMCS) is a tool for “country directors and
designated staff to conduct periodic self-appraisals of administrative, financial, training, and
program management practices at post.” The purpose of the AMCS is to provide “a graphical
snapshot of risk levels associated with current management practices to help country directors
identify and strengthen management categories in need of improvement (and for) regional staff
and involved headquarters offices (to) better support posts in needed areas.” As part of the IPBS
process posts are required to submit their completed AMCS to their country desk unit at
headquarters. Section five of the AMCS instrument is dedicated to the financial management of
the post, including questions related to the management of PCPP, SPA, and VAST grant
programs.



Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects             11
We were able to obtain and analyze the section five AMCS responses from 62 posts from all
three regions. Posts usually only respond to questions about grant programs they actually used.
Accordingly, 57 posts responded to questions for PCPP, 47 posts responded to questions for
SPA, and 28 posts responded to questions for VAST.

Our analysis of the survey questions and post responses identified various issues that could
lessen the utility of the AMCS tool. Additionally, we found some technical limitations in the
AMCS that could prevent Peace Corps staff from being able to analyze and use AMCS responses
to improve post operations.

Offices at headquarters interested in doing analyses of AMCS responses will likely face
challenges in obtaining completed AMCS from all posts. AMCS responses are not stored in a
centralized place at headquarters and although all posts were required to complete the AMCS not
all posts sent the completed AMCS to headquarters. As a result, we were unable to do a global
comprehensive analysis because the agency could not provide the completed section five AMCS
responses for all posts. Since posts complete a new AMCS each year and the responses are only
available in Excel files, there is very limited ability for post or headquarters staff to do any cross-
year analyses within posts or across posts to identify reoccurring issues, trends, or outliers.

The AMCS has the potential to be an instrument of great value for posts and headquarters to
improve posts ability to manage their grants programs. However, some of the questions in the
AMCS are unlikely to produce reliable and valid results. Numerous questions ask posts about
granular grant project information that arguably require post to review documents in every grant
projects’ file, while other questions ask posts to report on requirements that are not explicitly
stated in grant guiding documents.

Additionally, there were other important areas related to the management of a post’s grants
program that were not covered topics in the AMCS that may provide useful information, which
is discussed in the following table.

Table 2. Topic Areas that Were Not Included in the AMCS
Topic Areas Reasons for Including
Outside grants        Present a high risk for posts and the agency because they operate outside of the Peace
                      Corps’ internal grant programs.
Scholarships and      Headquarters staff raised concerns that grants that support scholarship and camp
Camps                 projects are often not community initiated, complicated to manage, and may present
                      increased liability for the agency.
Lost or Stolen        These present a high risk for the posts and the agency and there are additional
Grant Funds           reporting requirements when this occurs.
Committees and        This information would be useful for headquarters to know how posts are managing
Staffing              their grant programs and if they are following grant guidelines.
ECPA Grants           ECPA grants is an official Peace Corps’ internal grants program just like PCPP, SPA,
                      and VAST.

During our review the Office of Global Operations was working with various offices across the
agency to revise the AMCS survey. For the AMCS to be useful as a management tool, the
agency must ensure that questions are answerable by post staff using readily available data. The
AMCS should be clear on what type of information the posts review when completing the


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                       12
AMCS and what supporting data posts retain to backup their responses. A carefully crafted
AMCS section on grants management will provide meaningful data that can be analyzed by
headquarters to better support posts in strengthening their grant programs. Additionally,
headquarters could conduct recurring issues and trend analyses if the AMCS data was more
accessible and retained over several years.

Coordination and Communications
As the grant programs were managed by different offices at headquarters and developed
independently of each other, the offices have provided individual guidance documents to posts.
Furthermore, as the grant programs developed over time additional guidance was developed on
certain issues and policies to provide additional support to posts. The primary depository of
grants information is on Peace Corps’ Intranet and each grants office maintains individual
Intranet pages that are organized very differently.

Appendix B lists the various guiding documents that posts use to manage their grant programs.
PCPP and SPA each have over ten documents while VAST has five primary documents. Across
the grant programs there are some resources targeted to staff and others to Volunteers. PCPP is
the only grants program with a MS devoted to its operations. The Overseas Financial
Management Handbook (OFMH) has two chapters explicitly dedicated to managing the PCPP
and SPA funds. VAST guidance instructs posts to follow OFMH instructions for SPA. We were
unable to locate much detailed guidance that was provided to posts in regards to managing their
overall grants program.

Since SPA and VAST are comprised of funds from other government agencies some
requirements and guidance will have to remain different. However, across the grant programs
there are enough similarities in the procedures that much of the guidance could be combined or
consolidated.

Currently, in order to effectively manage their grant programs, post staff must refer to various
documents on the Intranet for each grant program. Additionally, headquarters distributed some
key information by emails and newsletters that is not stored in a central location. Another factor
that further complicates post staff’s ability to manage grant programs is that key leadership
positions at posts are usually U.S. direct hires who are subject to limited five year term
appointments as mandated by the Peace Corps Act.

Staff at posts raised concerns about not having a centralized place where all relevant grants
information was stored. While the large amount of information and communication is
appreciated it can also be overwhelming for the post staff if it is not well organized and easily
retrievable.

Streamlining the guidance and communication to posts will help remove unnecessary repetition
and differences across the grant programs while leading to increased efficiencies for posts.
Through the SGWG the agency has already begun an effort to streamline the guiding documents
that are provided to posts and has established a website that contains the newly developed
handbooks and forms. The agency should continue to consolidate all grants guiding documents,
remove outdated forms and instructions, and centralize all relevant grants information.


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects            13
Vetting of Grant Project Fund Recipients
Federal agencies that engage in grant giving programs often take additional measures to ensure
that grant project funds are not diverted to individuals or entities that have been identified as
prohibited recipients by the U.S. government.

The Department of Treasury, Office of Foreign Assets Control 4 (OFAC) publishes a list of
individuals and companies owned or controlled by, or acting for or on behalf of, targeted
countries that have had their assets blocked. Collectively, such individuals and companies are
called Specially Designated Nationals (SDN). Additionally, the government maintained an
Excluded Parties List System (EPLS) that has migrated into the System for Award Management 5
which provides a single comprehensive list of individuals and firms excluded by Federal
government agencies from receiving federal contracts or federally approved subcontracts, and
from certain types of federal financial and nonfinancial assistance and benefits. These lists
contain the names of individuals and entities identified by executive orders 6, federal laws, United
Nations Sanctions and government agencies that U.S. persons and organizations are generally
prohibited from conducting transactions with.

As required by Chief Financial Officer’s Bulletin 11-06 Guidance on the U.S. Treasury’s OFAC
Regulations posts must identify prohibited vendors prior to entering into agreements and
receiving services from them by referencing the SDN list maintained by OFAC or the
government’s EPLS. Posts must notify the Office of Global Accounts Payable if any matches are
found with vendors.

For major activity materials and equipment purchases posts may make a direct payment to a
vendor which requires establishing a vendor ID in the Peace Corps’ financial system. The post,
in compliance with Bulletin 11-06, should already have checked the vendor against the SDN or
EPLS lists. However, when the Volunteer directly receives the funds, the agency does not
require posts to check that other organizations and individuals also listed on the grant application
are not on these lists.

However, the vetting process should be more robust to ensure that all individuals receiving grant
funds either directly or through the Volunteer are not on the SDN or EPLS lists. Furthermore,
these lists are not exhaustive and the regional security officer and host government officials may
have additional information on organizations and individuals with whom Volunteers should not
engage. Headquarters should further strengthen the post grant project approval process to ensure
the agency complies with federal regulations and to protect the agency and Volunteers from
unintentionally providing grant project funds to prohibited individuals or entities.




4
  The Office of Foreign Assets Control administers and enforces economic sanctions programs primarily against
countries and groups of individuals, such as terrorists and narcotics traffickers.
5
  In July 2012, these systems migrated into the System for Award Management. Legacy EPLS information resides
in the Performance Information area of the System for Award Management.
6
  Executive Order 13224 signed by the President in the aftermath of the September 11, 2011 attacks on the U.S.
significantly expanded OFAC’s list of SDNs.


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                     14
Reporting of Lost or Stolen Grant Funds to OIG
MS 861 states that all agency staff have a responsibility to report instances of potential theft of
agency funds including grant project funds to OIG. However, posts have not received consistent
guidance across grant programs that missing funds should also be reported to OIG. OIG fulfills
its oversight mission by conducting audits, evaluations, and investigations of agency programs
and operations often based on information that is reported by Peace Corps staff members.

Staff and Volunteer grant program guidance for PCPP and VAST did not specifically discuss the
reporting of lost or stolen grant funds. SPA guidance required that the Volunteers notify the
post’s SPA coordinator who will notify the CD and safety and security coordinator. The CD will
then notify the USAID mission and the Peace Corps headquarter SPA program manager.

As posts were not fully informed of their responsibilities to report instances of lost or stolen
grant funds, some incidents went unreported to OIG. The agency must clarify the reporting
process for lost or stolen grant funds and could develop a process similar to resolving Imprest
fund shortages as discussed in the OFMH section 13.21. Under that policy CDs must report to
OIG and other offices any time a loss of greater than $10 that cannot be resolved in a 24-hour
period.

         We recommend:

          7. That the Office of Strategic Partnerships and the Office of Global Health and HIV
             establish a risk-based approach to providing consistent oversight over all grant
             programs to include which projects will require headquarters approval; the
             methodology for conducting grant project file reviews; and the process for
             conducting post-specific grant program reviews.

          8. That the Office of Global Operations work with the Office of Strategic Partnerships
             and the Office of Global Health and HIV to revise the Administrative Management
             Control Survey questions to have the survey be a more reliable and valid instrument,
             which addresses the risks and controls of all major internal and outside grants.

          9. That the Office of Strategic Partnerships and the Office of Global Health and HIV
             streamline and unify communications to posts regarding internal and outside grants
             programs through more centralized methods including an Intranet page to serve as a
             resources depository for all grant programs.

          10. That the Office of Strategic Partnerships and the Office of Global Health and HIV
              update procedures to require post staff to confirm that those receiving grant funds
              directly or through sub-agreements or contracts are not listed as Specially
              Designated Nationals or in the System for Award Management, and develop a
              process for handling potential matches.




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects            15
          11. That the Office of Strategic Partnerships and the Office of Global Health and HIV,
              in coordination with the Office of Inspector General, establish a process for
              reporting lost, misused or unaccounted grant project funds to the Office of Inspector
              General.


P OSTS’ M ANAGEMENT OF G RANT P ROGRAMS

Headquarters did not always provided complete or consistent guidance to posts on grants
management. Additionally, headquarters did not provided posts with a consistent method or
system to track individual grant projects throughout their lifecycle, which also limited
headquarters’ ability to provide oversight.

These factors contributed to wide variances in grants management and controls at posts. As a
result, some posts were not in full compliance with agency policies and others had supplemented
policies with their own procedures. We identified several grant management procedures that
could benefit from more standardization. Specifically, we determined that:

    •    Some posts have centralized the management of their grant programs under one grants
         coordinator while others have a decentralized approach where the coordination
         responsibilities are spread across various staff members;
    •    Guidance was not consistent across grant programs about who should be the recipient of
         grant funds;
    •    Posts did not retain grant project documentation for all grant programs;

We also noted that sometimes posts’ independent management of their grants programs was not
consistent with headquarters’ policies. These variances can inhibit headquarters’ ability to
provide adequate and consistent oversight over a post’s grants program to ensure the program is
managed efficiently and effectively.

Grants Management Staff Responsibilities
During our review, headquarters and post staff shared their experience and opinions on the
management of grants at posts. Posts usually manage their grant programs 1) centralized - where
one staff member at post administers all the post’s grant programs or 2) decentralized - where
management responsibilities are divided among various post staff members. The table below
summarizes some of the main comments raised by staff from headquarters and overseas
regarding the two grant management structures.

The comments were categorized as strengths or weaknesses based on the perspective of the staff
member interviewed. However, some comments could easily be categorized as a strength for one
system and a weakness for the other. The table provides examples of the comments raised by
staff and is not an exhaustive list of all the strengths and weaknesses of each system.




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects          16
   Table 3. Headquarters (HQ) and Field Opinions on Grants Management at Posts
          Centralized Post Grants Management            Decentralized Post Grants Management
    S  •   One  contact  person at post serves as HQ  •  Various staff are engaged in the grants
    t  liaison for all grant programs                 program   and can offer diverse viewpoints
       • Project tracking and follow-up is more       • Burden of managing a grants program is more
    r
       consistently done                              evenly divided among staff
    e • PCVs also have one contact person at post for • Posts with limited use of grants do not feel a
    n all grant related concerns                      need to centralize grant programs as they can
    g • Easier to enforce HQ or post-specific         provide adequate support to Volunteers when the
    t requirements across all grant programs          need arises
    h
    s
    W • Grants coordinator may be overburdened with • Grant programs at post are managed
    e duties                                          differently leading to inconsistencies
       • Fewer site visits by coordinator to PCVs to  • Project documentation is stored in various
    a
       provide direct support                         places by different people
    k • Posts with fewer grants may not have          • A required approver might not be available to
    n sufficient work or need for a single grants     review a grant application
    e coordinator                                     • HQ may need to follow-up with various staff
    s                                                 members to understand the grants program.
    s

Though guidance had been provided to posts for managing each specific grant program there had
been limited guidance regarding the post’s overall comprehensive management of their grant
programs. Headquarters staff and the SGWG reported interest in moving all posts to a
centralized system with a single staff member serving as the grants coordinator responsible for
managing all the post’s grant programs. The recently issued staff and Volunteer handbooks
provided a description of staff roles, this will help clarify responsibilities and promote
consistency. The Peace Corps Small Grants Program Handbook states, “Every post is strongly
encouraged to appoint a single small grants coordinator for all grant projects. If this is not
feasible due to staffing, workload, or budget constraints, posts may appoint more than one
coordinator for different grant programs.”

Regardless of what staffing system a post uses, having clearly defined staff roles and
responsibilities will help posts ensure that all primary grants management responsibilities are
covered. The agency and posts should include these grant management responsibilities into staff
position descriptions and statements of work. Consistencies across posts in staff management
roles and responsibilities, approval process, and administrative procedures are required for more
effective headquarters’ oversight of grants management at posts.

Recipient of Grant Funds
There are variations in the guidance regarding who should be the monetary recipient of the
approved grant project funds. As the agency looks to streamline grant operations it should define
the preferred grant funds recipient across all grant programs.




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                 17
Currently, PCPP requires that funds be transferred to the Volunteer. However, SPA has a strong
preference that funds go directly to the community organization but also allows posts to transfer
funds to the Volunteer or a joint account between the Volunteer and a community organization.
SPA guidance states that “disbursement to the Volunteer in his/her primary account…is the least
preferred option.” VAST allows the post to determine the grant funds recipient. Regardless of the
preferences by the grant program guidance, headquarters staff reported that Volunteers most
commonly receive grant project funds.

The table below summarizes some of the viewpoints expressed by staff regarding the recipient of
grant funds.

Table 4. Summary of HQ and Field Opinions on Recipient of Grant Project Funds
Recipient         Description                Advantages                                    Disadvantages
Volunteer         • PCV directly             • PCV can directly oversee project            • PCV may be have
                  receives the funds,        expenses to ensure they are in                increased safety risks by
                  usually through their      accordance with the approved project          holding the cash for projects
                  bank account, and          • PCV can ensure that finances are            • PCV may hand the funds
                  works with his/her         well tracked and receipts are retained        over to a community member
                  community through          for submission in the final project           or organization to actually
                  the implementation of      report                                        implement the project, despite
                  the grant project          • If PCV must depart site for personal        having received the funds
                                             or safety reasons it is easier to retrieve    • Harder to judge the
                                             unspent funds                                 community involvement and
                                                                                           commitment to the project
Community         • PCV identifies a         • Community member or                         • Community members may
Member or         community member or        organization also have an additional          have limited ability to
Organization      organization that has      opportunity for capacity learning by          accurately track finances for
                  the capability to          also managing the financial aspects of        final project reporting
                  receive the electronic     the project                                   • Harder to recoup the funds
                  funds transfer and they    • Community participation and                 if the project needs to be
                  will also sign             involvement could be greater as they          cancelled
                  responsibility for the     have increased responsibility for the         • Funds could easily be
                  implementation of the      funds                                         diverted for other needs rather
                  grant project              • Project may be more sustainable if          then what was approved in the
                                             the community can control the                 grant project application
                                             finances
Direct Vendor     • For certain grant        • Services are delivered quickly as           • Not very feasible for more
                  projects the funds can     outlined in the project report                complex projects that require
                  be directly paid to a      • Grant projects will come in at              multiple vendors
                  vendor who will then       budget as the application budget was          • PCV and community have
                  deliver the requested      likely developed by a quote from the          limited control on how grant
                  service for the grant      vendor                                        project funds are spent if
                  project                                                                  circumstances change

Post and headquarters staff also noted that some communities may not be able to directly receive
the grant project funds because they do not have access to a banking system. Volunteers often
work and live in isolated areas with very limited infrastructure. In some areas a Volunteer may
be one of the few individuals with the ability to receive an electronic funds transfer and with the
knowledge and ability to properly administer the finances of a grant project. Thus, some staff
and Volunteers raised concerns that if the local community can only access grants through a



Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                               18
Volunteer’s involvement then the community should not engage in the grant because the Peace
Corps is creating a dependency that is not sustainable.

While there are certain advantages and disadvantages for each grant recipient option, if the
agency is aiming to streamline grants procedures for posts this is one area that should be
standardized across grant programs. The agency should establish the preferred method and
acceptable alternatives and communicate them to posts along with the underlying reasons and
circumstances for using one method or another.

Grant Project Documentation
Though some guidance has been provided by headquarters to posts regarding the retention of
grant project documentation, posts are still struggling to maintain updated and complete files.
Also, the guidelines provided are not consistent across grant programs and some provide more
specific guidance than others. Furthermore, as outside grants were not directly managed by staff
or tracked in Peace Corps’ financial system, no guidance was provided to posts regarding what
documentation posts needed to maintain for Volunteer projects funded by outside grants.

MS 720, “Peace Corps Partnership Program” states:

         The post and GGM will each maintain a copy of the proposal, final report, and all correspondence
         pertaining to the project.

The SPA Program Handbook – November 2010 states:

         A complete SPA Grant file containing all documentation related to the project (including the proposal, the
         Project Agreement, consent forms, documented budget revisions, waivers from PC/Washington, reports,
         etc.) should be kept at post. Such files should be maintained in accordance with Peace Corps directives on
         file management and Inspector General (IG) audit guidelines.

We reviewed grant project files at six posts to understand how grant projects are managed and
documented. At each post we selected a sample of project files to review their primary grant
project documents including: the project proposal, consent and liability forms, and the final
report. However, many grant project files reviewed at posts were missing important documents
that were not readily available or the documentation included was missing key information such
as signatures, dates, project titles and numbers. Based on our review, we noted:

    •    Required signatures were missing on forms such as approval documents, completion
         reports, and grant transfer documents.
    •    Files did not always include a signed liability/consent/responsibility form.
    •    Some projects came in under budget and documentation was not included in the grant
         files to support that funds were returned.
    •    Post staff sometimes reviewed Volunteer’s grant project final reports on or after the
         Volunteer’s Close of Service date.

During our review posts were able to provide some of the missing documentation with additional
time to locate it. However, not all the documentation was easily accessible. Additionally, post
staff commented that grant project files were not located in a centralized place. The project


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                          19
application might be kept by a different staff member than the final project report. When grant
documents are not in one centralized project file the documents cannot be reviewed
comprehensively to check for completeness and accuracy.

Disorganized grant project files were a contributing factor to a case OIG previously investigated
where a staff member increased the budget of SPA project grants without authority after they had
been approved. The additional grant funds were used to purchase items for Peace Corps activities
unrelated to the approved SPA projects. If routine reviews were performed between the original
application budget and the final approved budget, improper budget increases by a staff member
may surface and be detected earlier.

Also, the Peace Corps has encouraged posts to reduce their carbon footprints and are moving
towards more electronic files rather paper ones. Volunteers are submitting some project
documentation over email as attachments but some of the documentation needs to be on paper
because it contains signatures. Having to maintain both electronic and paper files for projects
further complicates the situation. Without clear guidance of what information needs to be
maintained and in what form, posts will continue to struggle to maintain appropriate
documentation. Posts would benefit from having a file checklist similar to what posts use for
personal services contractor files. For headquarters and post staff to be able to conduct effective
oversight, posts need to be consistent in retaining their grant project documents.

Approving, Tracking, and Reporting of Grant Projects
During our review we noted different methods for tracking internal and outside grant projects
during the project’s approval and implementation process. Posts and headquarters staff used
Microsoft Excel spreadsheets, Microsoft Access databases, or paper file folders to track which
projects were approved, in-progress, and completed. Although some aspects of grants are tracked
in Peace Corps’ financial systems they cannot track the full grant approval and implementation
process. Peace Corps staff was aware of the inconsistencies and challenges in the current
mechanisms used for tracking and reporting grant projects.

During the course of this review staff from the grant program offices began working with the
Office of the Chief Information Officer to develop a grants management system. The system
reportedly would “…greatly improve administrative processes. Volunteers will use the
application to view grant opportunities, apply for grants and input progress against measurable
indicators and results. Headquarters will be able to review grants project data and query for
agency-wide financial and qualitative reporting. The system will also increase the Peace Corps'
ability to communicate with the public about the work being done with small grants.” 7

A grants management system should also be integrated with other Peace Corps data systems to
enhance efficiency and reduce duplication of efforts. Information that is also necessary for post
staff to oversee their Volunteer’s grant projects is also found in other Peace Corps data systems.
For example, Volunteer swearing-in and close of service dates are found in the Volunteer
Information Database Application while FORPost and Odyssey track the financial transactions at
posts and headquarters. A grants management system that retrieves information populated in
7
 Information Technology News Issue 1, Vol. 1 August 2, 2012. Newsletter published by Office of the Chief
Information Officer.


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                   20
other currently existing Peace Corps data systems would be more efficient as less time would be
required from post and headquarters staff to track grant projects and the accuracy of the grants
data would also improve.

The phases of grant projects are similar across internal grant programs and with most outside
grants as they all include approval, funding, implementation, and close out phases. A robust
grants management system could track all internal grant programs while also providing a method
for posts to track some key elements of grants projects that Volunteers execute with outside
grants. This would increase monitoring of outside grants while also providing greater support to
Volunteers.

The grants management system could also provide a method for Volunteers to submit
applications for internal grant programs electronically that would feed directly into the system
without requiring manual input from post staff. It would help posts with their grant projects
approval process and the tracking of individual grant projects during their implementation and
close out phases. Headquarters could provide greater oversight of grant programs as its staff
could easily analyze data in the grants management system and provide posts with additional
support. Additionally, a single grants management system used jointly by posts and headquarter
staff would likely improve the accuracy of grants data and facilitate grants reporting procedures
as all offices would have access to the same information and the system would standardize how
grants information is collected and tracked. It has the potential to address many of the challenges
identified in this report.

    We Recommend:

    12. That the Office of Global Operations incorporate grant management roles and
        responsibilities into standard staff position descriptions and statements of work.

    13. That the Office of Strategic Partnerships and the Office of Global Health and HIV, in
        coordination with the Office of General Counsel and the Office of the Chief Financial
        Officer, establish a standardized process to determine the preferred recipient of grant
        funds across all grant programs.

    14. That the Office of Strategic Partnerships and the Office of Global Health and HIV
        develop consistent requirements for posts on the retention of electronic and paper
        documentation for internal and outside grant projects and provide a file checklist to aid
        posts in ensuring all the documentation is retained.

    15. That the Office of Strategic Partnerships and the Office of Global Health and HIV, in
        coordination with the Office of the Chief Information Officer, develop an integrated
        grants management system for internal and outside grant projects that meets the tracking
        needs of posts and the reporting needs of headquarters and if feasible, link to already
        existing data systems.




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects            21
                               Q UESTIONED C OSTS AND
                           F UNDS TO BE P UT TO BETTER USE

We did not identify any questioned costs or funds to be put to better use during the course of the
review.




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects         22
                               LIST OF RECOMMENDATIONS
We recommend:

    1. That the Office of the Director clearly define and communicate Peace Corps’ overarching
       strategy on the use of grants and that posts use this information as guidance to develop
       their post grants strategy.

    2. That the Office of Global Operations, in coordination with the Office of Strategic
       Partnerships and the Office of Global Health and HIV require that posts incorporate into
       their strategic plan the post’s grants strategy and management plan, including resources
       that may be needed.

    3. That the Office of Strategic Partnerships conduct an assessment to understand the
       prevalence of outside grants, identify funding sources that should be discontinued, and to
       gain more clarity on why Volunteers pursue outside grants.

    4. That the Office of Strategic Partnerships based on the assessment of outside grants, in
       coordination with the Office of Global Operations, define and communicate the Peace
       Corps’ policy on outside grants, to include appropriate Volunteer and staff roles, and
       develop administrative procedures to ensure compliance with the policy.

    5. That the Office of Strategic Partnerships and the Office of Global Health and HIV
       establish a routine process to gather more valid and reliable data on outside grants from
       posts and Volunteers.

    6. That the Office of Strategic Partnerships and the Office of Global Health and HIV
       continue to pursue a simplified grant project application and approval process for all
       internal grant programs.

    7. That the Office of Strategic Partnerships and the Office of Global Health and HIV
       establish a risk-based approach to providing consistent oversight over all grant programs
       to include which projects will require headquarters approval; the methodology for
       conducting grant project file reviews; and the process for conducting post-specific grant
       program reviews.

    8. That the Office of Global Operations work with the Office of Strategic Partnerships and
       the Office of Global Health and HIV to revise the Administrative Management Control
       Survey questions to have the survey be a more reliable and valid instrument, which
       addresses the risks and controls of all major internal and outside grants.

    9. That the Office of Strategic Partnerships and the Office of Global Health and HIV
       streamline and unify communications to posts regarding internal and outside grants
       programs through more centralized methods including an Intranet page to serve as a
       resources depository for all grant programs.


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects           23
    10. That the Office of Strategic Partnerships and the Office of Global Health and HIV update
        procedures to require post staff to confirm that those receiving grant funds directly or
        through sub-agreements or contracts are not listed as Specially Designated Nationals or in
        the System for Award Management, and develop a process for handling potential
        matches.

    11. That the Office of Strategic Partnerships and the Office of Global Health and HIV, in
        coordination with the Office of Inspector General, establish a process for reporting lost,
        misused or unaccounted grant project funds to the Office of Inspector General.

    12. That the Office of Global Operations incorporate grant management roles and
        responsibilities into standard staff position descriptions and statements of work.

    13. That the Office of Strategic Partnerships and the Office of Global Health and HIV, in
        coordination with the Office of General Counsel and the Office of the Chief Financial
        Officer, establish a standardized process to determine the preferred recipient of grant
        funds across all grant programs.

    14. That the Office of Strategic Partnerships and the Office of Global Health and HIV
        develop consistent requirements for posts on the retention of electronic and paper
        documentation for internal and outside grant projects and provide a file checklist to aid
        posts in ensuring all the documentation is retained.

    15. That the Office of Strategic Partnerships and the Office of Global Health and HIV, in
        coordination with the Office of the Chief Information Officer, develop an integrated
        grants management system for internal and outside grant projects that meets the tracking
        needs of posts and the reporting needs of headquarters and if feasible, link to already
        existing data systems.




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects             24
      APPENDIX A: O BJ ECTIVE , SCOPE , AND M ETHODOLOGY
OIG conducted a review of the Peace Corps’ management of external funds and grants for Peace
Corps Volunteer projects, to include PCPP, SPA, and VAST. Our overall objective was to
determine whether these funds were properly managed and to identify ways to strengthen their
management. We reviewed grant sources, policies and procedures and related internal controls at
headquarters, and tested the posts’ implementation of procedures to ensure that funds were used
to effectively and efficiently support the work of Volunteers.

We conducted this review as a nonaudit as defined by generally accepted government auditing
standards, July 2007 revision, applicable at the announcement of this project. Our work provided
tools and methodologies, such as guidance and good business practices, benchmarking studies,
and internal control assessment methodologies that can be used by Peace Corps in managing its
grant programs. We established sufficient safeguards to prevent the review from impairing our
independence. Our conclusions are based on information from three sources: (1) document and
data analysis, (2) interviews, and (3) direct observation. We planned and performed the work to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our review objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our review objectives. This review
was originally staffed with a lead auditor and a program analyst. However, as a result of audit
staff turnover and resource shortfalls the lead role was reassigned to the program analyst. The
work was performed under the oversight of the assistant inspector general for audit.

The review was initially announced in February 2011, survey work was conducted March
through July 2011, and site visits to posts were performed September 2011 through October
2011. Our review covered fiscal years 2009-2011 and through the 3rd quarter of fiscal year 2012.

Survey
During survey work we reviewed criteria, interviewed staff, and obtained information to gain an
understanding of the processes and controls for PCPP, SPA, and VAST grant programs. We
excluded training activities that can also be funded by SPA and VAST as the funds are managed
primarily by posts rather than individual Volunteers.

Key information used included the Peace Corps Act and the Peace Corps Manual sections in
addition to the list of policies and procedures in Appendix B as criteria to develop our findings
and conclusions. At the end of the survey work we developed flowcharts of the process for
PCPP, SPA, VAST grant projects and provided them to agency management. These flowcharts
documented the key controls and highlighted similarities and differences between the programs.

During survey the agency was in the process of improving and streamlining the grant programs.
Where relevant we followed up to determine status and included these improvements in our
report. However, we have not tested the effectiveness of the agency’s most recent changes. In
addition, we conducted a limited review of the ECPA, because the agency was in the early
phases of developing and implementing this program and it relied heavily on the SPA process
that was included in our review. Any other new partnerships that included grant programs


Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects        25
developed during our review were excluded from the scope of the review. However, the findings
and recommendations on grant strategy, headquarters management and oversight of grant
programs, post management of grant programs contain overarching recommendations on
managing, streamlining, and improving the agency’s grant programs as a whole and could be
applied to any individual Volunteer grants that are managed through Peace Corps.

Site Visits
We interviewed staff and conducted file review at seven posts: PC/China, PC/Costa Rica,
PC/Lesotho, PC/Mali, PC/Peru, PC/South Africa, and PC/Uganda. We documented the processes
used by posts to approve projects, provide funds to Volunteers, and track and record the progress
of projects. We reviewed files to determine whether projects were properly approved, fully
funded, and well documented. The information from posts was compared to the guidance and the
processes described by headquarters to identify discrepancies and control weaknesses.

Data Limitations
The data OIG requested was generally provided in a timely manner by agency personnel, who
also assisted OIG throughout the review in responding to our questions. However, our report
identified data limitations in the VRF/T and AMCS surveys, and a lack of centralized and
complete grants data. Without this data, we could not fully assess the controls at overseas posts
without visiting and interviewing personnel at posts. Further, without a centralized database we
could not readily quantify the number and status of grant projects. The agency did not have an
effective mechanism to identify outside grants and lacked the capability to quantify the amount
of outside grants assigned to Volunteers and their prevalence of use.




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects            26
       APPENDIX B: G RANT P ROGRAM G UIDING DOCUMENTS
The following are the primary guiding documents that posts use to manage their grant programs.

         PCPP
                  Global Fund Guidance Memorandum for staff
                  PCPP Financial Guidance for Volunteers
                  PCPP Volunteer Handbook
                  Manual Section 270: PCPP
                  Manual Section 721: Gifts and Contributions to the Peace Corps
                  WID/GAD Policy
                  Overseas Donation for $5,000 or less
                  Guidelines for OPSI Tracking of PCPP Final Reports
                  Guidelines for OPSI Review of Post PCPP Files and Final Reports
                  PCPP Best Practices for Proposal Review and Approval
                  OFMH Chapter 33 Partnership Program Funds

         SPA
                  SPA Program Handbook for staff
                  USAID Initial Environmental Examination
                  Limitations on SPA Funds
                  Estimating the Value of In-Kind Contributions
                  Determining the Number of Beneficiaries versus Participants
                  SPA File Guidelines
                  Guidance on Creating Obligations FY11
                  Staff Guide to SPA Data in the VRT
                  Checklist for Reviewing SPA Abstracts and Completion Reports
                  MS 103 Partnership Agreements
                  OFMH Chapter 49 Small Project Assistance Program
                  USAID Peace Corps Participatory Agency Agreement and Amendments

         VAST
                  Peace Corps Implementation Plan Guidance for Programs and Activities to be
                  Supported by PEPFAR FY12
                  VAST Guidance for Staff
                  VAST Guidance for Volunteers
                  Office of the Global Aids Coordinator Partnership Framework
                  Regional or Country Operational Plans

         Other
                  The New Project Design and Management Workshop Training Manual
                  Guidelines for Youth Camps
                  Programming and Training Guidance: Program and Training Guidance




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects       27
                           APPENDIX C: L IST OF ACRONYMS
   AMCS                             Administrative Management Control Survey
   CD                               Country Director
   DMO                              Director of Management and Operations
   ECPA                             Energy and Climate Partnership of the Americas
   EPLS                             Excluded Parties List System
   GGM                              Office of Gifts and Grants Management
   HQ                               Headquarters
   IGAP                             Office of Intergovernmental Affairs and Global Partnerships
   IPBS                             Integrated Planning and Budgeting System
   MS                               Manual Section
   OFAC                             Office of Foreign Assets Control
   OFMH                             Overseas Financial Management Handbook
   OGH/H                            Office of Global Health and HIV
   OIG                              Office of Inspector General
   OPSI                             Office of Private Sector Initiatives
   OSP                              Office of Strategic Partnership
   PCPP                             Peace Corps Partnership Program
   PCV                              Peace Corps Volunteer
   PEPFAR                           President's Emergency Plan for AIDS Relief
   SDN                              Specially Designated Nationals
   SGWG                             Small Grants Working Group
   SPA                              Small Project Assistance
   USAID                            United States Agency for International Development
   VAST                             Volunteer Activities Support and Training
   VRF/T                            Volunteer Reporting Form/Tool




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects          28
   Appendix D: Management’s Response to the Pr eliminar y
                       Repor t




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects   29
                               Appendix E: OIG Comments
Management concurred with all 15 recommendations. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations.

We closed three recommendations: numbers 1, 6, and 9 based on evidence of corrective actions
that address the recommendations and provided the following comments. For recommendation 1,
we are closing the recommendation based on the information provided by the agency that
outlines Peace Corps’ strategy on the use of grants. The Director’s message and introduction
defines and communicates the overarching strategy on the use of grants. However, the
recommendation also requires that posts use this information as guidance to develop their post
grants strategy. We will consider how posts will use this information when reviewing the
agency’s response and corrective actions to recommendation 2, based on the agency’s comment
that the Office of Global Operations will communicate grants management objective and goals in
the strategic planning process.

We wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions, or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted, we may
conduct a follow-up review to confirm that action has been taken and to evaluate the impact. The
remaining 12 recommendations will stay open pending confirmation that remediation actions
have occurred and supporting documentation listed in management’s response is received.




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects      38
       APPENDIX F: AUDIT C OMPLETION AND OIG C ONTACT

AUDIT COMPLETION                          Auditors Steve Kaffen, Waheed Nasser, Gabrielle Perret, and
                                          Program Analyst Danel Trisi performed the review under the
                                          supervision of Assistant Inspector General for Audit Bradley
                                          Grubb.




                                          Bradley Grubb
                                          Assistant Inspector General for Audit




OIG CONTACT                               If you wish to comment on the quality or usefulness of this
                                          report to help us strengthen our product, please email Assistant
                                          Inspector General for Audit Bradley Grubb, at
                                          bgrubb@peacecorps.gov, or call him at 203.692.2914.




Final Report: Review of Peace Corps’ Management of External Funds for Volunteer Projects                 39
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                         Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                www.peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 http://www.peacecorps.gov/OIG
            Twitter:               https://twitter.com/PCOIG
